N o. 2 0- 1 5 4 1
I NT H E

~ u p r e m e Q C o urt of t ue W nite b ~t at e zPI V O T A L S O F T W A R E, I N C., E T A L.,

P etiti o n e r s,
V.

S U P E RI O R C O U R T O F C A LI F O R NI A,
CI T Y A N D C O U N T Y O F S A N F R A N CI S C O, E T A L.,

R e s p o n d e nt s.

C E R TI FI C A T E O F C O M P LI A N C E
A s r e q uir e d b y S u pr e m e C o urt R ul e 3 3. l( h), I h er e b y c ertif y t h at t h e Bri ef f or

A mi c u s C u ri a e C h a m b er of C o m m er c e of t h e U nit e d St at e s of A m eri c a i n S u p p ort of
P etiti o n er s i n Pi v ot al S oft w a r e, I n c. u. S u p e ri o r C o u rt of C alif o r ni a, N o. 2 0- 1 5 4 1,
c o m pli e s wit h t h e w or d li mit ati o n s, a s it c o nt ai n s 6, 0 8 5 w or d s.
I d e cl ar e u n d er p e n alt y of p erj ur y t h at t h e f or e g oi n g i s tr u e a n d c orr e ct.

D at e: A u g u st 2 3, 2 0 2 1

C ~ o

m p e o

